<html>
<title> - HHS AND THE CATHOLIC CHURCH: EXAMINING THE POLITICIZATION OF GRANTS (MINORITY DAY OF HEARING)</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  HHS AND THE CATHOLIC CHURCH: EXAMINING THE POLITICIZATION OF GRANTS 

                       (MINORITY DAY OF HEARING)

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 14, 2011

                               __________

                           Serial No. 112-104

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
73-162                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 14, 2011................................     1
Statement of:
    Burke, Florrie, consultant, Anti-Human Trafficking/Human 
      Rights/Collaborations, Chair Emeritus, Freedom Network USA, 
      UNODC Global Training Initiative; and Andrea Powell, 
      executive director and co-founder, Fair Girls..............    10
        Burke, Florrie...........................................    10
        Powell, Andrea...........................................    21
Letters, statements, etc., submitted for the record by:
    Burke, Florrie, consultant, Anti-Human Trafficking/Human 
      Rights/Collaborations, Chair Emeritus, Freedom Network USA, 
      UNODC Global Training Initiative, prepared statement of....    13
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia:
        Letter dated December 14, 2011...........................    46
        Prepared statement of....................................    51
    Cummings, Hon. Elijah E. Cummings, a Representative in 
      Congress from the State of Maryland:
        Prepared statement of....................................     7
        Prepared statement of Comprehensive Reproductive Health 
          Information and Services for Victims of Trafficking....     3
    Powell, Andrea, executive director and co-founder, Fair 
      Girls, prepared statement of...............................    24


  HHS AND THE CATHOLIC CHURCH: EXAMINING THE POLITICIZATION OF GRANTS 
                       (MINORITY DAY OF HEARING)

                              ----------                              


                      WEDNESDAY, DECEMBER 14, 2011

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:08 p.m. in room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Platts, Labrador, Meehan, 
Gowdy, Cummings, Towns, Norton, Connolly, and Quigley.
    Staff present: Alexia Ardolina and Drew Colliatie, staff 
assistants; Michael R. Bebeau, assistant clerk; Robert Borden, 
general counsel; Molly Boyl, parliamentarian; John Cuaderes, 
deputy staff director; Linda Good, chief clerk; Christopher 
Hixon, deputy chief counsel, oversight; Sery E. Kim, counsel; 
Mark D. Marin, director of oversight; Christine Martin, 
counsel; Ashley Etienne, minority director of communications; 
Jennifer Hoffman, minority press secretary; Carla Hultberg; 
minority chief clerk; and Cecelia Thomas and Ellen Zeng, 
minority counsels.
    Chairman Issa. Good afternoon. A quorum being present, the 
committee will come to order.
    Today's hearing, a minority day, is on HHS and the Catholic 
Church: Examining the Politicization of Grants, a minority day 
hearing.
    The Oversight Committee's mission statement is we exist to 
secure two fundamental principles: First, Americans have a 
right to know that the money Washington takes from them is well 
spent; and second, Americans deserve an efficient, effective 
government that works for them. Our duty on the Oversight and 
Government Reform Committee is to protect these rights. Our 
solemn responsibility is to hold government accountable to 
taxpayers, because taxpayers have a right to know what they get 
from their government.
    We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy. This is our mission 
statement.
    Pursuant to the request by the minority, today is a 
minority hearing. For that reason, I will ask the ranking 
member to begin by making his opening statement. The gentleman 
from Maryland is recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you very much for agreeing to hold today's minority day 
of hearings so quickly after our full committee hearing on 
December 1st.
    I would also like to extend my thanks to your staff for 
their cooperation in scheduling this hearing, and working with 
us to accommodate today's witnesses.
    I am very grateful for all of these efforts. The reason I 
feel so strongly about today's hearing is because I want to 
make sure our committee gives a voice to the victims of human 
trafficking, forced prostitution, and sexual slavery.
    In our last hearing, we invited only witnesses from the 
Department of Health and Human Services, who discussed the 
formal procedures for grant applications. We were missing 
witnesses who could testify in more detail about who these 
victims are, what they go through, and why reproductive health 
services are so critical for their recovery.
    Unfortunately, at the last hearing, several Members of the 
Republican side accused HHS of having an anti-Catholic bias. 
They argued that HHS should have awarded a grant to the U.S. 
Conference of Catholic Bishops, even though the bishops refused 
to allow any grant funds to be used for family planning 
services, such as abortion and contraceptives.
    At the last hearing, George Sheldon, the principal HHS 
witness, testified that he made his decision based on what was, 
``in the best interests of these victims.'' He explained that 
referrals for reproductive health services were critical for 
these victims. He stated, ``I have talked to victims, as well 
as experts in this field, who have indicated that referral for 
the full range of gynecological services is an appropriate 
requirement for these individuals who have been victimized and 
forced into prostitution.''
    He also said this: ``Ultimately, it is that victim that we 
are trying to empower. It is the victim that will decide what 
services they will avail themselves to or what services they 
will deny.''
    If our goal is to analyze this grant program in a 
responsible manner, we cannot ignore the voices of these human 
trafficking victims, many of whom are very young women who have 
been exploited and raped by their persecutors.
    For these reasons, I am very thankful that Ms. Florrie 
Burke and Ms. Andrea Powell are here today to share their 
experiences in helping these victims escape their exploitive 
conditions and put their lives back together. They will explain 
why these victims need a full range of referral services that 
includes reproductive health services, and they will explain 
why limits placed on those referrals fail to meet the needs of 
trafficking victims they serve on a daily basis.
    I would also like to enter into the record, with unanimous 
consent, a statement that was submitted by a coalition of 
nearly two dozen organizations in support of comprehensive 
reproductive health information services for female victims of 
human trafficking. These organizations all fully support HHS's 
decision.
    Chairman Issa. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] 73162.001
    
    [GRAPHIC] [TIFF OMITTED] 73162.002
    
    [GRAPHIC] [TIFF OMITTED] 73162.003
    
    Mr. Cummings. Finally, Mr. Chairman, at the broadest level, 
I believe Congress should do as much as possible to enhance 
efforts to combat human trafficking and sexual exploitation.
    Indeed, at our last hearing, you stated that this is an 
area where, ``there is never enough attention by Congress.''
    And I really do thank you, because I know you are very 
concerned about this issue. And I know of your work in the past 
with regard to it. And I hope we can work together in a 
bipartisan manner.
    And I believe I speak for the entire committee when I 
commend our witnesses for the work that each of them performs.
    With that, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 73162.004

[GRAPHIC] [TIFF OMITTED] 73162.005

    Chairman Issa. I thank the gentleman. I will now recognize 
myself for an abbreviated opening statement.
    I join with the ranking member in believing that in fact 
victims deserve the best services providers can offer. On 
December 1st, our hearing focused on the action by HHS 
political appointees in what we believed to be an abuse of the 
grant process.
    It may well be, as your unanimous consent indicates, and 
many of the statements made last week, that a full range of 
health care reproductive health care solutions may be needed. 
Notwithstanding that, the previous hearing showed clearly that 
in fact in the grant process HHS, knowing full well that under 
Catholic theology, they could not provide those services, that 
they ultimately decided to deny the grant on. That is why the 
committee's hearing did concentrate on Catholicism, a religious 
belief, which includes a prohibition on contraception or 
abortion, found themselves rated with an 89, with 5 years of 
successful--and we may hear differently today, but we didn't in 
previous weeks--successful execution of this contract.
    Having said that, the law is clear, denying based on 
religious beliefs is prohibited under the law. Two weeks ago, 
the grant process abuse appeared to clearly deny based on that. 
There certainly were well demonstrated opportunities for HHS to 
find work arounds, allowing for those individuals to receive, 
when they were receiving ordinary health care treatment from 
licensed physicians, to receive referrals or some other 
accommodation. That was not explored. It did not come to mind. 
And ultimately, the process was left to ask Catholic Bishops to 
say how they would pay for abortions and pretend not to. 
Ultimately, they could not do that. It would be outside the 
teachings of their faith and prohibited.
    Therefore, today's hearing, although it will concentrate 
on, and rightfully so, shedding light on these victims--and I 
approve the wide variety of questions that will undoubtedly be 
asked, and I have seen the witnesses' opening testimony, and I 
understand that it will concentrate on the victims. This series 
of hearings on grant abuse will continue asking not whether a 
particular policy or ideology is the case, but rather, under 
the current law, was a grant properly executed based on a 
system that is predictable and accountable to the taxpayers?
    Having said that, although I don't believe that will be the 
case, and nothing will change that today, I join with the 
ranking member in recognizing that we have a panel of human 
rights advocates who are here today to inform us further on a 
problem which this committee, on a bipartisan basis, wants to 
explore.
    With that, I yield back, and would now like to recognize, 
without taking a breath, our first panel.
    Ms. Burke is a consultant for anti-human trafficking, human 
rights, and collaborations, and is chair emeritus of Freedom 
Network USA.
    Ms. Andrea Powell is executive director and co-founder of 
FAIR Girls.
    Ladies, pursuant to the committee rules, I would ask that 
you please now rise to take the oath. And please, raise your 
right hands.
    [Witnesses sworn.]
    Chairman Issa. Let the record indicate both witnesses 
answered in the affirmative.
    Please take your seats. I am going to tell you this is my 
first minority hearing. But fortunately, it is not my first 
time to the rodeo. Everything is the same in a minority hearing 
as it is in any other hearing.
    So you will have a green light in front of you, a 
countdown. Please understand that both of your opening 
statements will be placed in the record completely. So 
abbreviate, go off of it. Quite frankly, extend or tell us 
things that were not in your statement and you will be adding 
to the information we have. When it gets to the end of 5 
minutes, please try to wrap up as expeditiously as possible.
    Ms. Burke.

      STATEMENTS OF FLORRIE BURKE, CONSULTANT, ANTI-HUMAN 
   TRAFFICKING/HUMAN RIGHTS/COLLABORATIONS, CHAIR EMERITUS, 
  FREEDOM NETWORK USA, UNODC GLOBAL TRAINING INITIATIVE; AND 
  ANDREA POWELL, EXECUTIVE DIRECTOR AND CO-FOUNDER, FAIR Girls

                   STATEMENT OF FLORRIE BURKE

    Ms. Burke. Chairman Issa, Representative Cummings, 
distinguished Members of Congress and staff, thank you for the 
invitation to provide testimony regarding the reproductive 
health needs of survivors of human trafficking.
    Thank you also for your interest and ongoing commitment to 
the services for victims.
    I have been working with these survivors since 1997. Since 
that time, I have worked providing direct services, creating 
programs, supervising staff, and now as an independent 
consultant to both governmental and nongovernmental entities.
    I also serve as an expert witness and am asked to testify 
on the psychological impact of human trafficking and the 
climate of fear that surrounds the victims of this horrendous 
crime.
    Additionally, I provide training on victim-centered care, 
both nationally and internationally.
    During the various aspects of my work, I have had the 
privilege of interviewing hundreds of survivors of human 
trafficking. And it is this direct experience that informs the 
remarks I will make today and in my written testimony. My 
intent is to convey the accounts provided to me by survivors in 
their own words, not based on theory, supposition, or ideology.
    I have not experienced trafficking myself, but these 
survivors have, and their stories have made a lasting 
impression on me. I think it is imperative that the 
distinguished members of this committee understand the import 
and urgency reflected in the physical and mental health needs 
of survivors. I am not a medical expert. But as a licensed 
mental health clinician with advanced degrees in clinical 
psychology, I am considered an expert in the mental health 
needs of victims and the efficacy of victim-centered care.
    I have worked with survivors who have been enslaved for 
days, months, or years. It is rare that traffickers will allow 
their victims to receive any health care during the period of 
enslavement. A more common occurrence is that after victims are 
rescued or escape, they come into contact with service 
providers.
    Case management programs are tasked with assessment and 
referral as well as providing practical support. It is their 
job to assist the survivor in determining what a trafficked 
person needs in all areas. If the screening assessment of case 
management programs reveals the need for health care services, 
referrals are made.
    A victim-centered approach means that all necessary 
information and options are provided to the survivor, who then 
makes decisions for him or herself.
    The age range of trafficked persons is staggering, from 
very young children to elderly persons. All are vulnerable to 
serious health consequences. To illustrate, I would like to 
cite a few examples from my experience. Two teenagers were 
forced to work in a brothel, and I was introduced to them the 
day after their escape, when they went through the back door of 
a clinic the trafficker had taken them to when one became ill 
and couldn't work.
    They told me they had been subjected to multiple sex acts 
without condoms and were fearful of disease. The young woman 
with the infection told me she was not given medication. This 
seemed odd to me. And upon further questioning, she did produce 
a crumpled up prescription. Due to the language issues, she 
hadn't understood that this was an order for medication.
    Another group of teenage girls were brought into this 
country and forced to work as bar girls. This included 
commercial sex acts and rape for many of them. One became 
pregnant and was given liquid and pills by the trafficker to 
force a miscarriage. These means were not effective until late 
in the pregnancy, when after repeated forced ingestion of this 
so-called medication, she endured a very painful and dangerous 
forced abortion at the hands of the traffickers.
    The other women were coerced into observing her and 
instructed that the same thing could happen to them. The young 
woman was then subjected to psychological torture by being 
forced to keep the result of the late-term miscarriage in close 
physical proximity for several days.
    When the young women from this case were finally rescued, 
this individual was hospitalized for physical and psychiatric 
care. She was suicidal and remained in care for several years 
to deal with the trauma of the abuse of the traffickers, the 
painful forced abortion without medical care, and the resulting 
situation.
    Another survivor who was older had been forced to work as a 
domestic servant for up to 6 years. She was repeatedly raped by 
her employer, her employer's son, and some friends of the 
employer's. At no time were condoms used. When she was finally 
free, she told these experiences to the case manager and was 
referred to a clinic for a complete gynecological workup.
    The clinic staff determined that because of longstanding 
untreated STDs, she had sustained permanent damage and probable 
loss of fertility. The case manager had to provide support and 
seek counseling for this woman to help her deal with this 
devastating diagnosis.
    Those of us in this room cannot know the feeling of 
individuals forced into degrading and physically and mentally 
dangerous situations like those I have just described. We 
cannot imagine the stress of knowing something is wrong but 
being powerless to get help, to get information, to get 
treatment, to get care.
    These crimes are taking place here in our country, to our 
citizens and to others who have come here in pursuit of a 
better life. Our laws are designed to protect and punish.
    The TVPA has done much to aid in the care and protection of 
victims and the prosecution of traffickers. The law states that 
victims are entitled to social services. This must include the 
full range of services in order to mitigate the harm of what 
has occurred.
    Chairman Issa. Ms. Burke, I see you have many more pages, 
and you are already 2 minutes over.
    Ms. Burke. Not too many.
    Chairman Issa. Can you wrap up? Like I say, you are heading 
toward twice the allotted time, if you don't mind.
    Ms. Burke. Okay.
    Chairman Issa. Thank you.
    Ms. Burke. Yes, sir.
    We must provide information about, and people will make 
their own choices. We must protect them, not punish them 
further by withholding options that might aid in their recovery 
and health. I was going to speak about the HHS grants.
    Chairman Issa. I am sure we will get to that. I appreciate 
it. And your entire record is placed in the record.
    Ms. Burke. Thank you.
    Chairman Issa. Trust me, it will be cited many times in the 
days to come.
    Ms. Burke. Thank you.
    [The prepared statement of Ms. Burke follows:]
    [GRAPHIC] [TIFF OMITTED] 73162.006
    
    [GRAPHIC] [TIFF OMITTED] 73162.007
    
    [GRAPHIC] [TIFF OMITTED] 73162.008
    
    [GRAPHIC] [TIFF OMITTED] 73162.009
    
    [GRAPHIC] [TIFF OMITTED] 73162.010
    
    [GRAPHIC] [TIFF OMITTED] 73162.011
    
    [GRAPHIC] [TIFF OMITTED] 73162.012
    
    [GRAPHIC] [TIFF OMITTED] 73162.013
    
    Chairman Issa. Ms. Powell.

                   STATEMENT OF ANDREA POWELL

    Ms. Powell. Thank you. Chairman Issa, Representative 
Cummings, and Oversight and Government Reform Committee 
members, staff, and others who are here today, I appreciate and 
am honored to have the opportunity to speak to you about the 
complexities of the social service needs of human trafficking 
victims here in the United States.
    I would particularly like to thank both Chairman Issa and 
Representative Cummings for their dedication to the needs of 
victims of human trafficking, including victims of forced labor 
and sexual servitude.
    Since the passage of the Trafficking Victims Protection Act 
in 2000, the U.S. Congress has advanced policies to ensure that 
victims of this horrible crime of human trafficking are offered 
comprehensive services that are designed to protect their 
rights and restore their dignity.
    I am the co-founding executive director of FAIR Girls, 
formerly known as FAIR Fund. We are a nonprofit agency based 
here in Washington, DC. We have offices and programs in Bosnia, 
Montenegro, Serbia, Russia, and Uganda. We serve adolescent 
girls between the ages of 11 and 21, to provide them both 
prevention education and long-term compassionate care, so that 
they can stay safe from or overcome situations of sex 
trafficking, forced labor, and other forms of exploitation.
    The majority of our clients who have been trafficked for 
labor and all of our clients who have been sold for sex have 
been raped, resulting in serious medical and emotional trauma. 
It is for them that I am acting as their voice today before 
you.
    In addition to our direct services, FAIR Girls offers 
prevention, education, and training to social service providers 
and law enforcement and others who should be able and are able 
to identify victims of trafficking.
    I wanted to make four key points, and then I am going to 
elaborate on some of the case examples that I shared in my 
original written testimony. First, I would like to state that 
all victims of human trafficking need medical services, 
particularly women and girls forced into sex trafficking 
situations.
    Second, victims of human trafficking are denied this 
medical treatment during their enslavement, thus making access 
to immediate medical care critical and urgent, and frankly, one 
of the very first things that we do as an agency.
    Third, and I think this is very important to keep in mind, 
victims of forced labor trafficking also need medical attention 
for harm as a result of hazardous labor, long hours and, in 
some cases, sexual abuse and rape by their traffickers. Their 
traffickers do not look at the situation as I am only 
trafficking for a certain purpose. If they believe they own an 
individual, particularly a vulnerable child, they are going do 
whatever they want with them. And that often includes rape.
    Finally, service providers for victims of trafficking are 
there to restore the dignity and freedom of our clients. We are 
not there to prescribe any type of judgment or to force our own 
opinions and beliefs on our clients. We are there to be, if you 
will, the door to open them to dignity and restoring their life 
as they would like to live it.
    I wanted to speak just a bit to the complexities of the 
issue of human trafficking. Under the TVPA, the definition of 
the severe forms of human trafficking is categorized into two 
areas, labor trafficking and sex trafficking. I would like to 
point out while forced labor trafficking always needs to have 
the element of proving force, fraud, and coercion, any young 
person under the age of 18 induced to commit a commercial sex 
act, whether they are seemingly giving consent or not, is 
automatically considered a victim of sex trafficking.
    Traffickers prey upon the vulnerability of victims. And in 
fact, when we do outreach education to kids in the schools here 
in the D.C. area, we have them learn two main words, 
vulnerability and exploitation. Traffickers know who to take 
advantage of. Victims are predominantly already victims of 
exploitation, poverty, homelessness, and other forms of abuse.
    I now want to share a few of our case examples that I 
believe are very important. Two years ago, we were reached out 
to by a local hospital that had one of our outreach brochures. 
They identified a teenage girl who they believed to be 
pregnant, who they also believed to be a victim of trafficking. 
We found out that her trafficker was able to sell her to up to 
20 men a night by utilizing online Web site advertising 
companies, like Backpage and Craigslist. Therefore, she was 
being forced to be raped and exploited day in and day out, to 
the point that she wasn't allowed to eat or sleep.
    This young woman, when she came to us, did in fact appear 
to be pregnant. We were able to get her a full medical 
assessment that day. And we found that instead of being 
pregnant, her trafficker had stuck a kitchen sponge inside her 
body to keep her from bleeding during menstruation. It had 
grown to the size of a football. And the toxins inside her body 
nearly killed her. Had we not had the capacity and the 
resources that we pulled together from our own agency's general 
fund to protect this young woman, it is very likely that she 
would have died in the next few days.
    In another case, to illustrate the connection between labor 
trafficking and the importance of reproductive health care, we 
had a young woman come to us a couple of years ago who was the 
victim of forced labor trafficking. We noticed that when she 
was speaking to us in the initial assessment that she was 
holding her arms in a very protective way. Eventually, she 
showed us all of the bruises and the scrapes and the battering 
that had gone on on her arms and her back. What had happened 
was her trafficker had beaten her several times because she had 
fallen asleep on the job. The wounds had become infected 
because the clothing had become embedded inside of her wounds. 
She also had been raped multiple times by the owner of the 
establishment, as well as many of the friends. This young woman 
suffered several sexually transmitted diseases and many more 
emotional and mental health scars that we cannot even begin to 
understand as we are not ourselves in that situation.
    I would like to finally summarize with one key point. In 
the United States, many of us are well aware that when there is 
a victim of rape, not just sex trafficking but any type of 
victim of rape, the first thing that we think is they need to 
get to the doctor. They need an assessment. What are the 
injuries? Do they have sexually transmitted diseases? Law 
enforcement takes them there. Social service providers take 
them there. It has become the norm.
    It is very important to understand that when a victim of 
trafficking is forced to have sex, this is also rape. It should 
also be the norm that any young person, old person, anyone who 
is a victim of trafficking should have the access that they 
need to make sure that they get an entire medical workup so 
that they can get on with recovering, as well as make sure that 
they address any long-term consequences.
    I appreciate the opportunity today to speak before you. And 
there are many more stories that I would like to share, as I 
believe passionately in the rights of the young people that we 
serve at my agency. And I am very open to questions.
    [The prepared statement of Ms. Powell follows:]
    [GRAPHIC] [TIFF OMITTED] 73162.014
    
    [GRAPHIC] [TIFF OMITTED] 73162.015
    
    [GRAPHIC] [TIFF OMITTED] 73162.016
    
    [GRAPHIC] [TIFF OMITTED] 73162.017
    
    [GRAPHIC] [TIFF OMITTED] 73162.018
    
    [GRAPHIC] [TIFF OMITTED] 73162.019
    
    [GRAPHIC] [TIFF OMITTED] 73162.020
    
    Chairman Issa. Thank you.
    Thank you both for your testimony.
    Because of the nature of today, I am going to ask the 
ranking member to go first. I will hold my questions probably 
until the very end as part of a summary.
    And with that, I recognize the ranking member for his 
questions.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Powell and Ms. Burke, thank you for being with us 
today.
    I have heard these victims' stories, and they are indeed 
heart-wrenching. And they have been horribly exploited. And I 
commend you both for the work that you are doing.
    Let me pose a fundamental question and let you respond. 
Your organizations both work with these victims directly. So 
you have this firsthand experience with their needs, as well as 
understanding of the treatment and services that work.
    Ms. Burke, can you please tell us why, in your opinion, it 
is to important to ensure that these victims have access to 
referrals for reproductive health care services?
    Ms. Burke. I think from the case examples that the two of 
us have given, it is obvious the critical needs that 
trafficking victims present when service providers meet them. 
Whether they have been enslaved in sex trafficking or labor 
trafficking, it is a common occurrence that rape is used as a 
means of control and exploitation.
    And when sexually transmitted disease or untreated 
infections are allowed to go on, permanent damage, health 
damage can go on, not only to cause harm to them but to others. 
And contraception is almost never provided by a trafficker. And 
yet these young women and older women are expected to endure 
rape 10, 20 times a day, without any kind of protection or 
medical care. And so we feel that it is so important that 
people be given information.
    And what service providers do is provide a referral to 
people who are experts in providing education, information, and 
services, so that survivors can make informed choices for 
themselves.
    They have had all ability to make a choice about anything 
taken away from them by the traffickers. And we need to restore 
this sense of personal freedom and choice about what is good 
for them and what they will pursue.
    Mr. Cummings. Ms. Powell, what about you, your 
organization?
    Ms. Powell. Absolutely. I believe that it is very important 
for all victims of human trafficking, regardless of what type 
of trafficking, to have immediate access to the reproductive 
health services and full range of medical services that they 
need.
    In fact, just yesterday, I was sitting before a new client, 
and within the first 5 minutes she asked me if I could get her 
to a doctor as quickly as possible because she was terrified of 
the consequences of being forced to have sex with dozens of men 
a day.
    This is not something that happens just on occasion. It is 
not a rare occurrence. Every single client that comes to us, 
whether referred by law enforcement in the middle of the night 
or being someone that was referred to us by child protective 
services, they all want and they all need this service.
    And furthermore, I would like to point out that I am not a 
medical professional, and most of my colleagues who are social 
service providers are also not medical professionals. 
Therefore, it is not in the best interests of our clients, nor 
is it ethical for us to presume what may or may not be going on 
with a client's mental or physical health. It is absolutely 
important that we utilize the medical community to give that 
comprehensive services to the victims.
    Mr. Cummings. At the previous hearing, some committee 
members suggested that organizations that receive taxpayer 
funds to help these victims should be allowed to prohibit these 
types of referrals.
    Ms. Burke, you have a chance right now to talk directly to 
some of those members and make your case. Based on your 
experience, should these types of referrals be prohibited? Or 
if not, why not?
    Ms. Burke. I definitely feel that services need to be 
comprehensive. Our law allows for a victim-centered approach 
for protection, prevention, and prosecution. And we are not 
protecting victims if we are not referring them for a full 
range of services.
    The early HHS grants, which first were awarded in 2001, 
were awarded directly to case management programs. And these 
grants provided for referrals for all necessary services, 
without restrictions. It was not until 2006, when the U.S. 
Conference of Catholic Bishops received the contract, that 
restrictions around reproductive health care would not allow 
these very same agencies that received initial funding to 
continue to provide the same inclusive referrals for care.
    It is important to understand that HHS funding is often the 
only funding that a service program has. The health and well-
being of clients was compromised when USCCB denied the ability 
of case management programs to refer for these services. The 
restriction stands in the way of health and healing of 
countless victims, and it denies the option of choice, 
something that had previously been denied by traffickers and 
enforcers.
    Mr. Cummings. Thank you very much.
    I see my time has expired.
    Chairman Issa. I thank the gentleman.
    The gentleman from Idaho, Mr. Labrador, for 5 minutes. See 
what happens when you come back early?
    Mr. Labrador. I came about back a bit early. I yield my 
time to----
    Chairman Issa. Okay.
    I will go to the gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    And I thank my friend and colleague from Idaho.
    Ms. Burke, do you know what the composite score was for the 
Catholic Bishops' grant application?
    Ms. Burke. I really have no idea about the grant 
application process, the scoring process.
    Mr. Gowdy. All right. They had the second highest composite 
score among all who applied for the grant. And I think the 
record will support that they had this grant or contract for a 
5-year time period. I can't recall a single witness ever 
providing any evidence that any of the victims who were helped 
by the Catholic Bishops were dissatisfied with their 5-year 
tenure.
    So I think what strikes some of us--and let me say at the 
outset, I am a former State and Federal prosecutor who has as 
little tolerance for crimes against any group, especially the 
voiceless and the defenseless, as anyone. So I appreciate and 
applaud what you all do on behalf of the people who cannot 
stand up for themselves.
    But I am concerned that an entity with a sterling 5-year 
track record of providing services also had the second highest 
composite score in a grant application and, nevertheless, was 
not awarded the grant. It just strikes me that they should have 
been disqualified, they should have been told up front because 
of your religious views on abortion, you are not going to be 
eligible to apply for this grant. But to go through the ruse of 
letting them apply, have the second highest score, a 5-year 
track record, and no complaints from victims, and then not 
award them the grant just strikes some of us as being 
excessively politicized.
    What do you think?
    Ms. Burke. I really can't comment on the grant-making 
process. I just am not aware. But I would like to address your 
question about victims' satisfaction or dissatisfaction, if I 
may.
    Mr. Gowdy. Okay.
    Ms. Burke. You said that you have not heard any evidence of 
victim dissatisfaction with the work done under the USCCB 
contract. Was that correct?
    Mr. Gowdy. Well, I asked the last panel that was before us 
if they had bothered to interview any of the victims to gauge 
their level of satisfaction. And they had not even gone through 
the process of interviewing the very people that we are trying 
to help.
    Ms. Burke. I would like to address that, if I may.
    Mr. Gowdy. Okay.
    Ms. Burke. I would like to try to. I think that if you 
asked victims about a contract with USCCB, very frankly, I 
don't know that they would understand the nuances of that 
contract. They are interested in the services that are being 
provided. They are seeking services from a case management 
agency. It would be the providers who would express the 
satisfaction or dissatisfaction with the contracting 
restriction.
    Mr. Gowdy. Let me stop you there, because unfortunately, 
despite the very serious nature of this topic that we are 
discussing, we are limited to 5 minutes.
    You would have no aversion to the Catholic Bishops being 
able to handle male human-trafficking victims, so this would 
not be an issue. I assume, because of their sterling track 
record, that if HHS had the foresight to divide it between male 
and female victims, there is nothing disqualifying about the 
Catholic Bishops with respect to male trafficking victims.
    Ms. Burke. I think that that would create a terribly 
awkward system of divisiveness in deciding who is a victim and 
who is not.
    Mr. Gowdy. But you can see the awkwardness of telling a 
denomination that has a long history of trying to help the 
weak, the poor, the disenfranchised groups that nobody else has 
been historically willing to help, to tell them that because of 
your religious views on this issue, you need not apply. Because 
the next thing that goes through my mind is what if the 
Catholic Bishops wanted to apply for an after-school grant that 
had nothing do with human trafficking? If it was just an after-
school program, but they might have female participants in it, 
would they also be disqualified because of their religious 
views with respect to abortion? I am trying to get you I guess 
to answer what HHS would not answer last time, which is their 
religious views have disqualified them. They need not apply for 
any HHS grants until they change their religious views.
    Ms. Burke. I think that it is not about male and female, 
because I think that all victims of trafficking, sex 
trafficking, labor trafficking are vulnerable to serious health 
consequences, sexually transmitted disease, etc. So dividing 
into genders would not solve this problem. What we need to do 
is be inclusive that all health services are available to all 
victims.
    Mr. Gowdy. So would the Catholic Bishops be disqualified 
for applying for any grants with any demographic that could be 
even tangentially related to reproductive services?
    Chairman Issa. The gentleman's time has expired.
    You may answer, though.
    Ms. Burke. I am not sure that I can answer, because I am 
not in the position of making these grants. My overarching 
responsibility is to see that all--that referrals for all 
health services can be made for victims.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now recognize, well, quite frankly, I think Mr. Quigley 
was the only one here at the start, Mr. Quigley, for 5 minutes.
    Mr. Quigley. Thank you, Mr. Chairman.
    Ms. Burke, Ms. Powell, again, thanks for the work that you 
do and for those in your agencies for the work that they do.
    There were news stories alluded to in the previous hearing 
which argued the following point, that providing contraception 
to trafficking victims is sustaining prostitution. The argument 
being victims being trafficked right now cannot provide 
informed consent to an abortion or a regime of contraception 
because they are under control of a trafficker. If you do 
provide these services, all you are doing is perpetuating 
modern day sex slavery.
    So the question for both of you is, is this correct? Does 
providing contraceptives to survivors of trafficking sustain or 
support prostitution? And based on your experiences in human 
trafficking, are victims capable of giving informed consent to 
family planning services? Fire away.
    Ms. Powell. Okay. I will start. So as a social service 
provider, we have never been in the position where we were 
buying contraceptives for those who are currently being 
trafficked. I think one thing to kind of frame this discussion 
on is that when someone is a victim of human trafficking, they 
are in fact enslaved. None of the money is theirs. They have no 
agency. They eat when they are told to eat; they sleep when 
they are told to sleep. They wear what they are told to wear. 
They have absolutely no ability to make choices. And I am using 
the word victim very confidently right now, because in that 
state, in that situation in which they are enslaved, they are a 
victim.
    However, when they are referred to us through law 
enforcement, when they escape, or when they are rescued, when 
they come to us, they then go on this path of becoming a 
survivor. And part of being a survivor is having the ability to 
say what they need and when they need it, and how they want to 
have that service provided to them. And it can be as simplistic 
as wanting a pair of socks to sleep in, and it can be as 
complex as legal services and medical services.
    Our job as a social service provider, in particular in 
those first 24 hours, is to really try to listen, as clearly 
and without judgment as possible, to what this individual 
needs. And that individual can be a 65-year-old man who is a 
victim of labor trafficking, and it can be a 16-year-old girl 
who is a victim of sex trafficking. Our job is to listen and to 
help them get access to those services. And we do everything in 
our power, given the resources and the size of our agency, to 
do that.
    Mr. Quigley. Ms. Burke.
    Ms. Powell. I think you had a second part to your question 
that I maybe didn't answer.
    Mr. Quigley. At that point of being survivors, are they in 
your mind capable of informed consent on such decisions?
    Ms. Powell. Absolutely.
    Mr. Quigley. Thank you.
    Ms. Burke.
    Ms. Burke. Yes, I would agree that with proper 
understanding of the language, if there is a second language 
issue, that information needs to be provided in the primary 
language of the survivor, first of all. And with proper 
education and information, certainly people can make informed 
consent. They have to have informed consent to go through the 
criminal justice process.
    The key here is, as Ms. Powell said, that service providers 
are not providing contraception or other family planning 
services. We are making referrals for those things.
    So your question about sustaining or supporting 
prostitution, I don't see the connection between the provision 
of contraception and that concept.
    Mr. Quigley. And with the limited time I have, how much--
you talk about the health care that you provide. Can you touch 
a little bit about the psychological capability--psychological 
care you can provide at that point?
    Ms. Burke. Currently, I don't provide direct services any 
more. I am a consultant. So I am involved in training about the 
need for psychological experts to provide care for survivors. 
And this would, again, be based on the needs of the individual, 
whether it need to be some sort of cross-cultural counseling or 
a group mode of therapy. It depends on the individual.
    Mr. Quigley. Mr. Chairman, if Ms. Powell could take, with 
unanimous consent, about 60 seconds to answer the same 
question, given the amount of time?
    Chairman Issa. You may answer the same question, please.
    Ms. Powell. Okay. So to answer your question, when a client 
comes to us, we have to make a very comprehensive assessment. 
And granted, we have very limited time in that first 24 hours 
to think about a variety of situations going on. There might be 
language competency issues at play. And certainly, we work 
first and foremost to address that so that we make sure that 
everything that is going on is understood by this new survivor 
so that they are making the best decisions that they can make.
    We then try to figure out what other basic needs that they 
need to have met simultaneously so that they are feeling 
comfortable enough to express what they need.
    But we are not putting the words in their mouth. We are not 
pushing them toward doing something if they don't want to do 
it. We are doing everything in our power to hear what they 
need. And that might mean that they want to immediately get 
reproductive health services. It might just mean that they are 
hungry, and they need some food. And they might just be tired 
and need to sleep first.
    And our counseling professional staff in all of our 
locations are skilled professionals who can make sure that they 
are helping that individual make the most important choices of 
their life in the way that they believe that they would like to 
make them.
    Mr. Quigley. Thank you.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    We now go to the gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    It is my pleasure to yield my time to my friend and 
colleague from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you very much to the gentleman from 
South Carolina.
    Ms. Powell, I just--I want to thank both of you, actually, 
for the work that you do. I was not a prosecutor, but I was 
actually a criminal defense attorney, and I have dealt with 
some of the issues that you are dealing with, and I know how 
hard it is.
    I do have some questions, though. According to your 
testimony, Ms. Powell, your organization offers each of its 
clients individualized care, including counseling, advocacy, 
referrals for housing, legal and medical services. What 
percentage of your clients request counseling?
    Ms. Powell. Most of them request counseling. I don't have 
an exact percentage.
    Mr. Labrador. Approximate. You say close to a hundred 
percent?
    Ms. Powell. I would say 85 to 90 percent.
    Mr. Labrador. What about advocacy?
    Ms. Powell. It depends on whether or not they have been 
arrested as a result of their trafficking. That might be 
something that they need support for. Or if they need support 
around immigration issues. But I am going to say more like 40 
percent.
    We actually also serve domestic minor victims of sex 
trafficking. And sometimes advocacy for them looks pretty 
different than someone who is a foreign national victim.
    Mr. Labrador. What about housing?
    Ms. Powell. Pretty much all of them need housing. And that 
is a big challenge.
    Mr. Labrador. And legal?
    Ms. Powell. It really depends. I would say about half.
    Mr. Labrador. And medical?
    Ms. Powell. Almost all of them. I would say 98 percent need 
some type of medical care referrals from us within the first 48 
hours.
    Mr. Labrador. Okay. You also state that their medical needs 
include the treatment of STDs.
    Ms. Powell. Right.
    Mr. Labrador. Serious gynecological illnesses, including 
cancer, kidney damage due to untreated STDs. These treatments 
are all within what the U.S. Catholic Bishops do, and they 
would be willing to provide, but they don't wish to refer for 
abortions. How many of your clients actually ask for services 
dealing with abortion?
    Ms. Powell. When our clients ask for referrals for 
reproductive health care, it is usually within the first 24 
hours of us meeting them. And it is often that they would like 
to discover. It is not that they know whether or not they are 
pregnant or that they know whether or not that they have a STD. 
So, by and large, they are asking for a referral so they can 
figure out what the damage is to their body and what they are 
going to have to do to recover moving forward.
    Mr. Labrador. Do you pay for their medical services?
    Ms. Powell. Luckily, we have a community health clinic here 
in the D.C. area that offers the initial consultations pro 
bono, while we figure out other remedies for payment. On 
occasion, we have had to pay for medications, though.
    Mr. Labrador. So if you look at all the services that you 
provide, are you willing to say that providing abortion 
services is the most important of all the services that you 
provide?
    Ms. Powell. It is very important that we are able to 
provide the full range of reproductive and medical services 
that our clients need.
    Mr. Labrador. I understand. But we are talking about a lot 
of different services. And if one organization provides all the 
other services exceptionally well but does not provide one 
service and is willing to send people out to provide those 
services, don't you think they are doing a good service to the 
community?
    Ms. Powell. So my understanding is that for an organization 
to be able to provide comprehensive services for victims of 
trafficking would actually in fact mean just that; it would 
have to be the full range and be comprehensive. So if they are 
not providing referrals for this one particular service, then 
they aren't in fact comprehensive.
    Mr. Labrador. That is this administration's interpretation. 
But the Catholic Bishops has been doing this for 5 years 
without providing the comprehensive services. And in fact, when 
they were rated, because you know there was a rating that--when 
they were rated, they actually came in with the second highest 
score when you looked at the overall responsibility that they 
had, not just at this one particular thing. So when they are 
the second best agency providing the services, all the other 
services that we are talking about, don't you think it is a 
disservice that we are not allowing--that we are not using an 
organization like that that is actually doing everything else 
pretty well?
    Ms. Powell. To be honest, I really only have one interest, 
and my interest is not the Catholic Bishops, and it is not the 
grant process; it is to make sure our clients have 
comprehensive services. As a very small agency that chose not 
to subcontract with any government contracts with HHS, we did 
this because we wanted the freedom to make sure that we could 
provide comprehensive services for our clients.
    I can tell you firsthand this is not easy cobbling together 
the resources and making sure that while you are internally 
panicking as to how you are going to pay for this, that you are 
smiling at your client, saying it is okay, honey, we are going 
to be fine, and thinking, how am I going to explain this to the 
board that I just paid for this? So it is a very tricky 
process. And I think that anyone who is providing comprehensive 
services has to do just that. We can't pick and choose and part 
and parcel. We have to do this holistically, just as we would 
other victims of sex crimes and other forms of exploitation.
    Mr. Labrador. And my understanding is that they do it 
holistically as well, they just don't pay for the services. But 
they will refer to medical providers to do any kind of service 
that needs to be done.
    But thank you very much for being here today.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Brooklyn, New York.
    I think Mr. Quigley and Mr. Cummings were the only ones 
here at the start.
    I apologize. You were here. You were so quiet; I missed 
you.
    Mr. Towns. I believe we have the yielding program here.
    Chairman Issa. No, no, forget about that yielding thing. I 
am not missing a chance to make amends. I now recognize, with 
great pleasure, the gentlelady in the District of Columbia, in 
which we are all thankful to be, for 5 minutes.
    Ms. Norton. At the moment.
    Chairman Issa. At the moment.
    Ms. Norton. Thank you, Mr. Chairman. I appreciate this 
hearing.
    My colleague on the other side indicated that if you are 
second best at providing some of the services, that ought to be 
enough, even if they are not all of the services that are 
needed. I would say if you are first best in providing some of 
the services, but those are not all of the services that the 
clients need, that that is not good enough. If I go to a doctor 
and he says I am real good at doing X, but you need X and Y, he 
is not good for me.
    Now, he also listed the services. He went down the 
services. Did you notice that contraception was not on that 
list? And I don't know why this discussion has gone off 
entirely on abortion. I recognize how critical that is. But it 
is important to get on the record that once the Bishops had the 
contract, that these clients, who had been involved in 
trafficking, for whom sex had become a way of life, were not 
even able to be referred for contraception.
    Let us understand what we are talking about. Even if you 
are trafficking and you don't want an abortion, you don't 
believe in abortion, after the Bishops got the contract, you 
could not be referred even for contraception, even though you 
had been involved in sex exchanges all your life.
    Do you understand that going off on abortion hides what we 
know every single person who has been involved in the life of 
trafficking will need, and that is some way to protect him or 
herself? Am I exaggerating the importance of contraception or 
the need to provide contraception services, which were left 
entirely off of that list that my colleague provided? I would 
like to know something about contraceptive services and the 
importance of providing them or not providing them to this set 
of clients.
    Ms. Burke. I don't think that you're exaggerating at all, 
and I think that the referral for contraception and emergency 
contraception is of vital importance for survivors of human 
trafficking for all the reasons that we've listed. And when 
USCCB got the contract in 2006, programs were no longer allowed 
to refer for the full range of reproductive health.
    Ms. Norton. You know, some of my colleagues accused those--
some of us on this side, who believe people should have the 
full range of services, including contraception and abortion, 
of anti-Catholic bias, even though I believe this was entirely 
refuted by the record, which showed the Catholic Church had 
received some $50 million in funding in the last 3 years, more 
than they had received under the prior administration.
    And I do want to say for the record, the Framers really did 
have this thing right. It is as if you can get the public 
dollar, the taxpayer money and continue to practice your 
religion using taxpayer dollars as you please, regardless of 
the needs of the client. There's no entitlement to a contract 
in this country.
    I want to ask about--I want to ask about, before the 
Bishops had the contract. Before the Bishops had the contract, 
Ms. Burke, were you able to provide the services, contraception 
and abortion?
    Ms. Burke. We were able to provide the referrals for the 
services.
    Ms. Norton. That's what I mean.
    Ms. Burke. Yes.
    Ms. Norton. So when the Bishops no longer had the contract, 
all that was happening is that you were going back to the 
status quo ante, how it had been before. When you were--when 
the Bishops no longer had the contract, you were able to 
provide the services. Once they got the contract, you were not?
    Ms. Burke. Correct.
    Ms. Norton. Now under the Bishops' restrictions, passing 
out public money, how did the subcontractor or organization----
    Chairman Issa. I would ask unanimous consent that the 
gentlelady have another 30 seconds.
    Ms. Norton. I appreciate that, Mr. Chairman.
    Under the Bishops' restrictions, if you needed, you believe 
somebody needed contraception, I would say that would be 
everybody, but forgive me if I think that, that needed 
contraception or needed abortion, how would you assure that the 
client received these services?
    Ms. Burke. For some programs, there were other sources of 
funding that were not tied to the contract, subcontract with 
USCCB, and those programs could utilize that funding.
    Ms. Norton. Well, suppose you were a subcontractor of the 
Bishops?
    Ms. Burke. For programs who were subcontractors with the 
Bishops, and that was the only source of their funding?
    Ms. Norton. Yes.
    Ms. Burke. That meant that case managers, who work really 
long hours at very low pay, had to spend extra time.
    Ms. Norton. Uncompensated time?
    Ms. Burke. Uncompensated time, trying to find a service 
that would provide----
    Ms. Norton. Contraception, for example.
    Ms. Burke. Contraception, for example.
    Ms. Norton. Thank you very much, Mr. Chairman,
    Chairman Issa. I thank the gentlelady.
    We now go to the gentleman from Pennsylvania.
    Mr. Platts. Mr. Chairman, thank you.
    I don't have any questions, but I appreciate both witnesses 
for being here and especially written testimony, because I'm 
running between meetings but glad to have your written 
testimony that I may be able to take with me and appreciate 
your work.
    Chairman Issa. Would the gentleman yield?
    Mr. Platts. I would be glad to, Mr. Chairman.
    Chairman Issa. I thank you. Let me go through a few 
questions, because I have developed some questions while this 
has been going on.
    Ms. Burke, Ms. Powell, these questions will be sort of for 
both of you.
    Do both of you have places that you could refer an indigent 
to get contraception at no cost to them? It's pretty 
straightforward. Do you have a way outside of Federal funds to 
get contraception for people in general, for women in general? 
It's kind of an easy yes or no.
    Ms. Powell. We have----
    Chairman Issa. You have other resources you said you 
scrapped together with very little money. I assume you have 
that, is that right?
    Ms. Powell. Right. So we're predominantly using pro bono 
sources from the medical community.
    Chairman Issa. Do you also have, if no other source is 
available, the ability to get an abortion for somebody in need 
if no funds are available.
    Ms. Powell. If we can find a referral for the medical 
services a client needs, then we can make that referral. But if 
we don't have the----
    Chairman Issa. No, I understand. And I'll get to the 
referral in a second. I'm sort of building to that, and, you 
know, in our earlier hearing--I don't think either of you were 
necessarily in the audience--but there were three services, 
which you are acutely aware of them, sterilization 
contraception and abortion.
    And abortion, under Federal law, we're only talking about 
rape, incest and the life of the mother. We're not talking 
about just because somebody's pregnant under the Federal law, 
is that correct? Okay. So we are talking about a narrow 
constraint, but it doesn't really matter. Those are the three 
procedures out of 200 medical procedures.
    Did the Catholic Bishops prevent you from referring 
somebody to a doctor for gynecological examination, including 
STDs and the other full range of things that can happen to 
somebody who has been the victim of rape?
    Ms. Burke. Yes.
    Chairman Issa. They did?
    Ms. Burke. Yes.
    Chairman Issa. What, other than abortion, contraception and 
sterilization, what procedures did they prohibit you from 
referring to a doctor for, kidney disease, cancer, STDs, were 
any of those prohibited?
    Ms. Burke. No.
    Chairman Issa. Okay, so you said there, yes, what's the 
yes. What other than those three did they prohibit? In other 
words, the same gynecological exam is going to go on for all of 
these, so I just, I understand, you sent somebody for a health 
care referral. You were not prohibited sending them to somebody 
who could refer for an abortion because you didn't have to send 
to a Catholic doctor. You sent to people, I assume, who could 
come back and say the woman is pregnant or the woman needs 
contraception for some reason, right?
    You just couldn't physically get it paid for by the 
Bishops; is that right? This is still the same doctor, isn't 
it? I'm asking this for a question, and I'll get to the 
question, rather than run you through questions you are 
uncomfortable answering.
    We are not concerned about abortion here today. We're 
concerned about a contract. So let me go through the whole 
point.
    Had HHS said that, in fact, there was another program 
outside of the Catholic Bishops and that under that site fund, 
if a physician, who you referred for a full range of 
examination, because, often you didn't send somebody in knowing 
they were pregnant. The poor woman with a sponge, you thought 
was pregnant, she wasn't pregnant, and ultimately, you still 
referred here.
    So if you sent somebody in and there was a site that said 
if it comes back in these three categories by the doctor, that 
referral goes to this site fund of Federal dollars, Ms. Powell, 
something similar to when you had the State Department funding 
directly that you had.
    If you had another site fund, you would have been able to 
refer them under that other site fund, is that correct, just as 
you could have been referred them under pro bono work, is that 
right?
    Ms. Powell. We probably would be able to cobble together 
different resources to do that.
    Chairman Issa. Okay, but I am saying now if the Federal 
Government had given you these resources and simply given it to 
you on another site fund, provided it under the contract to 
everybody, you would have had a site fund, you could have done 
it. You weren't prohibited from having multiple contracts.
    And the reason I'm asking this is, we asked HHS did they 
try a work around? They said no, we went to the Catholic 
Bishops and told them to offer us one. This committee is in no 
small part concerned about differences on the--I'm sorry--on 
the abortion issue, but we're also concerned on the 
contracting.
    So, in the future contract, if Catholic Bishops or any 
group for any reason has any concern, if there is an effective 
work around, and it appears as though there was an effective 
work around, or at least it could have been explored, as people 
dealing with people in need, you would have used the multiple 
site funds or the free over here or that clinic over here that 
you testified to earlier to, wouldn't you, to provide all those 
services, because the Catholic Bishops were not providing the 
services, they were doing referral and administration, right?
    Ms. Powell. Sounds like a really complicated process, and 
I'm not as familiar with the different types of contracting 
that you're referring to.
    Chairman Issa. Well, you're very, and my--his time has 
expired, but you are very familiar with cobbling together money 
to get what you want.
    Ms. Powell. True.
    Chairman Issa. Okay, you'd have cobbled it together. Our 
problem here on the dais is we have a law that prohibits 
religious beliefs from making somebody ineligible, and yet we 
didn't have any attempt to work around. So that's why the 
question--I apologize for going over.
    And I guess I'm now going to the former chairman of the 
full committee, who has been very patiently waiting, the 
gentleman from Brooklyn, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me thank you and the ranking committee chair for having 
this hearing. I would like to read into the record a statement 
that was submitted by another survivor of human trafficking who 
is on the verge of success with her life. Her story is one of 
sadness, but also one of hope.
    We can use hers and other examples as we continue to 
examine what services are made available for victims of human 
sex trafficking and who is capable of providing the services 
that are necessary to transition back to a normal life as 
possible.
    And let me, this is from Asia Graves, who is 24 years old, 
college student, is going to school for political science with 
a legal studies concentration.
    When I was 17 years old, she said, I was a victim of human 
trafficking. I was living with my mother, who was addicted to 
crack cocaine. For safety reasons, I moved in with my father, 
who was an alcoholic.
    I did not know my life would turn upside down. My dad 
requested that I pay $900 a month in rent. I got a job working 
as many hours as I could to try and pay my rent. I even missed 
school. When I could not pay my rent, my father threw me out.
    So, with no place to go, I moved in with a group of girls 
who were staying in a one-bedroom apartment. They introduced me 
to several of their male friends, who I didn't know were pimps. 
I was told I was going to--on a date, but instead I was taken 
to the track, a street corner in the middle of a snowstorm, and 
left there. They told me that I had to have sex with these men 
for money, or I would be homeless.
    I didn't do it, and on my walk home, I met a guy who 
appeared to be my age. He told me that I was beautiful, and I 
could go home with him. He took care of me and gave me a place 
to live.
    After a week, he told me that he was a pimp, and I was his 
property. He called an escort service, who took naked pictures 
of me and put them on their Web site. Men came to the hotel and 
had sex with me. I was told that if I did not have sex with 
them, they would kill me.
    Two weeks later, he took me to the track and made me work. 
He said that if I did not, he would kill my family. He sold me 
to several other pimps that had sex with me and forced me to 
have sex with other men.
    After being beaten, hit in the head with an iron and 
sexually assaulted with a hair brush and figuring out that I 
was pregnant, I had enough. I tried to run but was held hostage 
at gun point.
    When I finally escaped, I spoke to the first police officer 
that I could find. That led to my trafficker's retaliation 
against me. The next morning my trafficker sent four women with 
steel-toed Timberland boots to assault me. They knew that I was 
pregnant, so they focused their kicks on my face and stomach. 
They left me on the sidewalk like a piece of garbage.
    I walked to the nearest police station and spoke to a 
police officer, who sent me to Sergeant Kelley O'Connell. She 
knew who my trafficker was.
    During our interview, I started to miscarry. She took me to 
the emergency room. I was afraid to go to the hospital for the 
fear that I wouldn't be seen due to lack of health insurance. 
They made sure that even though I did not have health 
insurance, I was taken care of.
    After that, I did not know what to do or who to turn to. 
Thankfully, I was blessed to have a group of investigators who 
helped me physically and emotionally. I was also referred to 
Carol Gomez, director, of course, and she who worked as my 
victim advocate mentor and counselor. Without her, I would have 
not have been able to receive mental health treatment or PTSD 
physical, as well as dental help, to fix several teeth that 
were broken by my traffickers.
    I never went to a doctor during that period of my life, 
during my life, while I was being held hostage by my pimps. 
Thankful, since I got out of this situation and had access to 
doctors, I have not tested positive for a sexually transmitted 
disease. I was and am still scared of not knowing whether I am 
really am disease-free.
    Could I get another 30 seconds added?
    Chairman Issa. Without objection.
    Mr. Towns. I had a close friend who caught full-blown AIDS 
from her pimp. She has died recently. Once I got help from 
Carol, I was grateful to be able to have information about 
access to contraception and condoms to make sure I stayed 
healthy and to protect my partner.
    Carol also took me to the doctor to make sure my sexual 
health was in good standing. I am relatively healthy, but 
doctors don't know yet if I will ever be able to have children 
as a result of the beatings and assaults I suffered.
    And had I not miscarried right after I escaped my 
traffickers, Carol would have given me information about 
options on pregnancy. She would have helped me access prenatal 
care or abortion services, depending on what I decided was best 
for me.
    I owe Carol everything. Thanks to her and what she did for 
me.
    Once I escaped my trafficker, I am nearing college 
graduation. I plan to attend law school so that 1 day I will be 
able to advocate for women who are going through what I went 
through. We need programs to help provide us with services, and 
we need to make sure we get all of the services we need.
    I thank both of you for coming to testify and for the work 
that you are doing. I appreciate it. I want you to know, you 
are making a difference in the lives of so many. Thank you.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Virginia, Mr. Connolly, for 
5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And I want to thank, particularly Mr. Cummings, the ranking 
member, for requesting this hearing. I'm still--I can actually 
hear from the providers of services to victims of human 
trafficking as sort of a follow-up to the earlier hearing.
    And assertions to the contrary, notwithstanding, in the 
first hearing, we had on the subject from my point of view, the 
witness we had, Mr. Sheldon in particular, made it very clear 
that there was no politicization or anti-religious bias in the 
decision not to award this particular contract of services to 
victims of human trafficking to the U.S. Catholic Bishops.
    In fact, the record made very clear that the U.S. Catholic 
Bishops received several grants subsequent to the denial of 
this one, and that the Catholic Church, Catholic entities, 
including Catholic Charities, including Catholic Relief 
Services, receive hundreds of millions of dollars of U.S. 
taxpayer assistance because of the wonderful work they do, 
whether it be internationally or domestically. Some of the 
smear, the suggestion, that there is a bias against my church 
is false.
    The question came down to what the nature of the grant was, 
what services were to be provided. Mr. Sheldon gave, I thought, 
eloquent testimony before this committee that we know more now 
about the victims of human trafficking, and that one of the 
essential services, absolutely essential--and I'm going to ask 
you whether you concur--but in terms of services for the 
victims, most of whom are women, often young girls, who have 
been multiply, you know, abused sexually, raped, physically 
mistreated, are gynecological services, precisely the services 
the U.S. Catholic Bishops, as a matter of conscience, chose not 
to provide. That is their right. But if that's the nature of 
the services needed, and that's the nature of the grant 
designed, then you give it to somebody who can and will provide 
those services.
    It was a fairly straightforward proposition, not 
politicized at all until it came to this committee.
    Now I want to know, if I may, Ms. Burke and Ms. Powell, 
from your point of view, is it essential that the full range of 
gynecological services be provided to the victims who would be 
served by such grants?
    Ms. Burke. I can't stress enough how important I think it 
is that the full range of services be available, that service 
providers be able to refer for these services.
    It's been borne out in years of experience on my behalf 
that there--it's not just contraception, abortion or other 
services, but it's the education that goes along with it, that 
victims are often young, victims are often undereducated, 
victims often come with a different primary language and don't 
really understand their own sexual health. They don't 
understand the functions of their body, and they are very 
vulnerable to illness and disease. And we wouldn't consider not 
referring clients who suffer from a diagnosis of cancer, 
diabetes or heart disease, and yet it has been the practice of 
the last 5 years to prohibit referrals for reproductive health 
care that also helps to halt disease and prevent long-term 
health issues.
    Mr. Connolly. Thank you, Ms. Burke.
    Ms. Powell, why, I mean, what's the harm, in skipping that 
part?
    Ms. Powell. It's absolutely critical that we have the 
ability, and we must be able to provide comprehensive referrals 
for all forms of reproductive health needs. And I'd like to 
buildupon----
    Mr. Connolly. Why? Why is it important? You just assert 
it's important, but why is it important?
    Ms. Powell. It's important for their lives. It's not just 
about whether or not we think they might need it. These 
individuals absolutely need the ability to have these 
referrals, just like the example that I gave of a young woman 
who had a kitchen sponge the size of a football in her stomach; 
she would have died had we not been able to get her to care. 
And this is not the only scenario that was like this.
    This is a very common tactic of traffickers to put a 
foreign object in a woman's body or a girl's body so that he 
can maximize his profit by using her, even during menstruation.
    Mr. Connolly. So if I understand you correctly, this isn't 
just a matter of--well, as a matter of conscience I don't 
really like that--so I'm going to make a little exception and 
not provide that service. Absent that kind of service, we might 
unintentionally, of course, actually be jeopardizing lives.
    Ms. Powell. Right. And as a service provider, I can't be in 
that position. I must be able to provide my clients to all of 
the services that they need.
    Mr. Connolly. Thank you, my time is up.
    Mr. Chairman, might I also ask that a letter from Catholics 
for Choice, addressed to the ranking member, Mr. Cummings, be 
entered into the record at this time?
    Chairman Issa. They didn't send one to me?
    Mr. Connolly. Pardon me? I don't know. You know, they sent 
one to me. I don't know whether----
    Chairman Issa. I'm shocked, I'm shocked. Yes, without 
objection it will be included.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 73162.021
    
    [GRAPHIC] [TIFF OMITTED] 73162.022
    
    Mr. Connolly. Mr. Chairman, knowing how hurt your feelings 
are, I will make sure they send you one.
    Mr. Towns. Mr. Chairman, I'll get you one.
    Chairman Issa. I thank the former chairman.
    Mr. Connolly. Thank you.
    Chairman Issa. Thank you.
    And I'll combine a close with my 5 minutes.
    You've been helpful today. This hearing was one that I told 
the ranking member I wanted to have anyway, although his 
insistence made a huge difference in how fast we had it.
    I want to go through a couple of things.
    Ms. Powell, have you had any other contracts, Federal 
contracts or subcontracts, other than the State Department? Did 
you do any work under the Catholic Bishops?
    Ms. Powell. We have not done any work with the Catholic 
Bishops, no.
    Chairman Issa. Okay. So you don't have any knowledge of 
what they would or wouldn't do?
    Ms. Powell. My case manager and program director worked for 
another agency, and she has given me multiple examples, but I 
personally don't have direct knowledge.
    Chairman Issa. Okay. Well, we don't have her here today so 
that's why I'm asking.
    Ms. Burke, you haven't done any work with the Catholic 
Bishops under a Federal contract, have you?
    Ms. Burke. Not since 2007.
    Chairman Issa. Okay. Let me ask just a couple of questions 
to sort of clear up things that I didn't hear asked or 
answered.
    Catholic Bishops pay for well baby treatment? Did--would 
they provide pregnant mothers with healthy exams to help with 
making sure their baby was delivered in a healthy way? In other 
words, did pregnant women under the Catholic Bishops get 
referred to anybody? I assume they didn't just deny them health 
care.
    Ms. Burke. No.
    Chairman Issa. So they would deny--they would allow them to 
have the baby get an ultrasound, the mother get an ultrasound 
of the baby.
    Ms. Burke. I think so, yes.
    Chairman Issa. So they would have found that sponge, right, 
or found that it wasn't a baby? I just want to make the point 
that maybe people would misunderstand in this hearing and think 
that that woman with a sponge inside of her body would die 
under Catholic Bishops care--and it doesn't appear as though 
they would have--if someone thought she was pregnant, she still 
would have gotten a referral. It would not have been a referral 
to get an abortion, but it would have been a referral for 
normal, healthy--normal questions, especially if the baby 
didn't kick and she kept swelling, right?
    Ms. Powell. We had about 2 hours with our client before we 
made that referral because she was in so much pain.
    Chairman Issa. Okay, let's follow up on that. Catholic 
Bishops' administration, the people they paid to do it for 
them, Ms. Burke, maybe, before 2007, if a woman was in pain, 
you just, Ms. Burke, that woman in pain with a sponge in her 
uterus or wherever it was trapped, she would have gone to the 
hospital under the Catholic Bishops, wouldn't she? You wouldn't 
have been prohibited from taking a woman in pain to the 
hospital, even if she was distended and looked like she was 
pregnant?
    Ms. Burke. No, we wouldn't.
    Chairman Issa. Okay, I just want to make the point because 
I think it's important that there were differences, perhaps, in 
what they administered, but I think there's no question--and I 
sometimes object when Catholic Charities, Catholic priests, 
Catholic everything, they willingly and knowingly house illegal 
immigrants. They provide all kinds of around the government 
because they're so caring and so liberal that will they don't 
recognize U.S. borders.
    So I'm not going to tell you that the Catholic Church is 
perfect at all times, they have been part of sanctuaries for 
people who they knew were not here legally, and they didn't 
care. That's part of how compassionate they are.
    So, certainly, no administrator on behalf of the Bishops 
would have denied health care that they thought was life 
threatening to somebody. They would have gotten them to the 
doctor. You can all agree to that, can't we?
    Okay. In closing, I understand, Ms. Powell, you thought it 
was cumbersome if the contract had been let differently. But if 
I told you what the first hearing told us, which was it is 
illegal to deny them, based on their religious beliefs, and it 
is, in fact, true that the contract never said you will be 
denied this contract because you do not offer abortion, 
sterilization or birth control pills and the like, that the 
contract had a certain flaw.
    You've testified today, both of you, that what you called 
the full range of health care--and we called the last three of 
200 that are listed--but suffice to say, they don't provide 
those as a matter of conscience. The contract implied that they 
could win, and they got an 89 and somebody with a 69 got the 
contract instead.
    So I think you would all agree, you both I hope would 
agree, that the process of letting them go through the bidding 
and then not receive it was inherently flawed because if, as I 
understand correctly, you think that--and I'm not disagreeing 
with you, I'm just asking, you think that, in fact, it should 
have been, a, look, if you don't do it, you don't get the 
contract, right? That's what you've testified to pretty much. 
Okay.
    That is one of the challenges, and I'll close now, for this 
committee, is to figure out how the grant process can be honest 
and legal up front so that nobody enters knowing that there is 
a trapped door at the end and so that from the remaining 
people, whoever are eligible, they receive contracts in a fair 
and impartial fashion.
    The term ``competitive grant'' always bothers me when I 
find out that the competition at the end of it all is 
somebody's individual decision.
    So I want to thank you for your testimony. I think it was 
illustrative, far beyond just the question of grant process. I 
think you both have been excellent witnesses, and I thank you 
for your being here.
    I have no doubt that Congress will look to have you back on 
this subject including, perhaps, this committee, and we stand 
adjourned.
    [Whereupon, at 3:30 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]
[GRAPHIC] [TIFF OMITTED] 73162.023

                                 <all>

</pre></body></html>
